Audit Report



Return
    to the USDOJ/OIG Home Page




Office of Community Oriented Policing Services Grants to the Asbury Park Police DepartmentAsbury Park, New Jersey


GR-70-03-005


May 2003
Office of the Inspector General


EXECUTIVE SUMMARY

The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services (COPS) to the Asbury Park, New Jersey, Police Department (Asbury Park).  The purpose of the grants is to enhance community policing.  Asbury Park was awarded a total of $3,198,068 to hire 18 new police officers and redeploy the equivalent of 5.1 existing full-time police officers from administrative duties to community policing.
We reviewed Asbury Park's compliance with seven essential grant conditions and found weaknesses in four of the seven areas we tested:  hiring of additional officers, local match requirements, reimbursement requests, and officer redeployment.  In our judgment, Asbury Park is in material non-compliance with COPS grant requirements.  As a result of the deficiencies identified below, we question $1,294,490 in grant funds received and recommend an additional $238,181 be put to better use.1

Asbury Park did not increase its police force by the correct number of officers funded by the hiring grants.  However, because the COPS Legal Division previously cited Asbury Park for deficient hiring practices we make no recommendations regarding hiring in this report.
 
Asbury Park could not provide support for local matching funds for the FAST hiring grant.

Asbury Park could not support all of the salary and fringe benefit expenditures requested for reimbursement under the hiring grants.

Asbury Park did not hire all of the civilians authorized by the MORE 96 grant.

Asbury Park could not support all of the salary costs requested for reimbursement under the redeployment grant. 

Asbury Park did not expend all grant funds prior to the end date for the redeployment grant.

Asbury Park could not demonstrate redeployment of the minimum number of officers into community policing resulting from the redeployment grant. 

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.


Footnotes

The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix III for a breakdown of our dollar-related findings and for definitions of questioned costs and funds to better use.